1
In The
SUPREME COURT OF THE UNITED STATES
Michael D. Bikundi, Sr.
v.
United States of America
AND FLORENCE BIKUNDI,

Respondents
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
PETITION FOR A WRIT OF CERTIORARI
Steven R. Kiersh
Counsel of Record
5335 Wisconsin Avenue, N.W.,Suite 440
Washington, D.C.20015
Skiersh@aol.com
Counsel for Petitioner
Michael Bikundi
Member of the Bar of the
United States Supreme Court

1
QUESTION PRESENTED

1. Whether a district court has an obligation to impose a meaningful
sanction for a material and highly prejudicial violation of Federal Rule of
Criminal Procedure 16

i

n
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDINGS

ii

RELATED PROCEEDINGS

in

TABLE OF AUTHORITIES

IV

OPINIONS BELOW

v

JURISDICTION

VI

STATEMENT OF THE CASE

IX

REASONS FOR GRANTING THE PETITION

IX

ARGUMENT

1

CONCLUSION

4

PARTIES TO THE PROCEEDINGS
Petitioner Michael Bikundi was a defendant in the district court
proceedings and an appellant in the court of appeals proceedings.
Respondent United States of America initiated the proceedings in the
district court and was the appellee in the court of appeals proceedings.
Florence Bikundi was a defendant in the district court proceedings and an
appellant in the court of appeals proceedings.
Christian S. Asongcha a/k/a Chris Asong; Melissa A. Williams; Elvis N.
Atabe; Carlson M. Igwacho; Irene M. Igwacho; Bernice W. Igwacho; and
Atawan Mundu John were defendants below but did not participate in the
trial or court of appeals proceedings, except, in some cases, as trial
witnesses.

RELATED PROCEEDINGS
The following reflects related cases pertaining to the various defendants
named in the December 18, 2014 Superseding Indictment:
1.

United States v. Michael Bikundi Sr. No. 14-CR-30 (D.D.C.), judgment

entered June 3, 2016 (ECF #542)
2.

United States v. Florence Bikundi, No. 14-CR-30 (D.D.C.), judgment

entered June 3, 2016 (ECF #544)
3.

United States v. Christian S. Asongcha, No. 14-CR-30 (D.D.C.),

pending
4.

United States v. Melissa A. Williams, No. 14-CR-30 (D.D.C.),

judgment entered May 27, 2016 (ECF #532)
5.

United States v. Elvis N. Atabe, No. 14-CR-30 (D.D.C.), judgment

entered June 10, 2016 (ECF #555)
6.

United States v. Carlson M. Igwacho, No. 14-CR-30 (D.D.C.),

judgment entered June 10, 2016 (ECF #557)
7.

United States v. Irene M. Igwacho, No. 14-CR-30 (D.D.C.), judgment

entered May 20, 2016 (ECF #521)

8.

United States v. Berenice W. Igwacho, No. 14-CR-30 (D.D.C.),

judgment entered April 25, 2016 (ECF #505)
9.

United States v. Atawan Mundu John, No. 14-CR-30 (D.D.C.),

pending
10. United States v. Florence Bikundi, No. 15-3013 (D.C. Cir.), judgment
entered March 25, 2015
11. United States v. Michael Bikundi, Sr., No. 16-3066 (D.C. Cir.),
judgment entered June 11, 2019
12. United States v. Florence Bikundi, No. 16-3067 (D.C. Cir.), judgment
entered June 11,2019

IV

TABLE OF AUTHORITIES
CASES

PAGE

United States v. Brazil, 102 F.3d 1120
(1999)................................................

3

United States v. Trevino, 556 F.2d 1265
(5th Cir. 1977)..........................................

3

Wardius v. Oregon, 412 U.S. 470 (1993)

1

TREATISE
2 Charles Alan Wright & Arthur R. Miller,
Federal Practice & Procedure
(4th Ed. 2018)..........................................

1

FEDERAL RULES
Federal Rules of Criminal Procedure
16

v

1

OPINIONS BELOW
The opinion of the court of appeals (App. 1a-68a) is reported at 926 F.3d

761. The memorandum opinion of the district court denying petitioner’s
motion for judgment of acquittal or, alternatively, new trial (App. 98a-225a)
is not reported.

VI

JURISDICTION
The court of appeals entered its judgment on June 11, 2019, and denied
a petition for rehearing on October 4, 2019 (App. 226a-227a).

On

December 11, 2019, Chief Justice Roberts extended the time for filing a
petition for a writ of certiorari to and including March 2, 2020. App. 235a.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

VII

RULES INVOLVED

Federal Rule of Criminal Procedure 16

VIII

STATEMENT OF THE CASE
The opinion of the D.C. Circuit, while acknowledging a serious and
material violation to Federal Rule of Criminal Procedure 16, simply
discounted the necessity of imposing a significant sanction for the violation.
This allowance is in conflict with decisions of this Court and other Circuits.
In the concurring opinion, Circuit Judge Rogers noted,
In other circumstances, such conduct as occurred here would
raise concerns identified by the Supreme Court and this court in
view of the underlying purposes of Rule 16. That would oblige a
district judge to ensure an appropriate sanction for a violation of
Rule 16.
The distinguishing feature between this case and other cases
referenced by Judge Rogers appears to be the vigorous cross-examination
of the witness who presented the subject data. However, the record was
clear that despite the rigorous cross-examination, defendant was unable to
present a complete defense because he was deprived of an opportunity to
investigate the data. The report was produced at the end of the
government’s case and there simply was no way to investigate the data. A
mistrial with prejudice would have satisfied Michael Bikundi’s right to
present a complete defense by allowing a complete investigation of a
material evidence.
IX

Defendants, during the pre-trial phase of the proceedings, repeatedly
requested the government to identify all patients alleged to be involved with
Medicaid submissions and false and fraudulent claims. It was not until three
weeks into the trial that the government notified the defendants of the
existence of 567 beneficiaries who received services from defendants but
who did not qualify for such services. The government made repeated
reference to this information during the evidentiary phase of the
proceedings and during closing arguments. The trial record was clear that
at least a month before commencement of the trial the prosecutor had
requested that the Director of Health Care operations for the District of
Columbia government (Shearer) prepare a report to quantify the scope of
the fraud as charged to defendants related to 567 beneficiaries.
Michael Binkundi vigorously opposed the introduction. Of the
testimony related to the 567 beneficiaries, defendants argued that it was
highly prejudicial as the inference was that the Medicaid services stopped
jupon the arrests of the defendants therefore demonstrating that the
Medicaid services were not necessary. This argument was advanced by
the United States during trial and during closing argument.
x

The United States was permitted to proceed with highly prejudicial
testimony at the end if its case that defendants had no means to challenge.

XI

REASONS FOR GRANTING THE PETITION
In a concurring opinion Circuit Judge Rogers clearly recognized the
importance of this issue and how it affects the integrity of the trial
proceedings. Her very narrow distinction from opinions of this Court and
other circuits, that defendants vigorously cross-examined the witness
through whom the testimony was admitted, did not satisfactorily address
the central issue of whether defendants were denied their right to present a
complete defense.
This Court should address and reiterate that in order for the federal
rules work to enforce the rights of individuals charged with crimes it is
imperative that significant sanctions should be imposed for violations of the
rules of criminal procedure.

XII

i. Whether a district court has an obligation to impose an actual
sanction for an acknowledged, material and highly prejudicial
violation of Fed. R. Crim. Pro. 16 (a)(1)E).
Rule 16 requires the government to produce, upon a defendant’s
request, “books papers, documents, data, photographs...” if the item is
“within the government’s possession, custody or control.” Fed. R. Crim. Pr.
16. Rule 16 has been amended to provide for broader discovery in criminal
prosecutions. Adv. Comm. Note 10 1993 Amendment; see also 2 Charles
Alan Wright & Arthur R. Miller, Federal Practice & Procedure § 251 (4th ed.
2018).
This Court has for decades demanded that a person charged with
criminal offenses be afforded the opportunity to learn of the existence of
potentially favorable and/or exculpatory evidence and be afforded an
opportunity to investigate the material information.
he adversary system of trial is hardly an end in itself; It is not a poker
game in which players enjoy an absolute right always to conceal their
cards until played. We find ample room in that system, at least as far
as due process is concerned, for (a rule) which is designed to
enhance the search for truth in the criminal trial by insuring both the
defendant and the State have ample opportunity to investigate certain
facts crucial to the determination of guilt or innocence.
Wardius v. Oregon, 412 U.S. 470, 474 (1993).
Defendants, during the pre-trial phase of the proceedings, repeatedly

1

requested the government to identify all patients alleged to be involved with
Medicaid submissions and false and fraudulent claims. It was not until three
weeks into the trial that the government notified the defendants of the
existence of 567 beneficiaries who received services from defendants but
who did not qualify for such services. The government made repeated
reference to this information during the evidentiary phase of the
proceedings and during closing arguments.
The trial record was clear that at least a month before
commencement of the trial the prosecutor had requested that the Director
of Health Care operations for the District of Columbia government
(Shearer) prepare a report to quantify the scope of the fraud as charged to
defendants related to 567 beneficiaries.
Defendants forcefully and correctly argued that disclosure of the report
during trial violated their constitutional rights to mount a complete defense.
Defendants argued that had the report been disclosed in a timely manner
they could have investigated the content of the report and determined the
existence of legitimate reasons why the beneficiaries, stopped receiving
2

Medicaid claims.1 An investigation could have “undermined the inference of
fraud the government asked the jury to draw.”
Rather than impose any meaningful sanction for the Rule 16 violation,
the government was permitted to argue the reports in an impermissible and
highly prejudicial manner.
The concurring opinion of Judge Rogers is compelling.
Mr. Shearer disclosed prior to trial the prosecutor had requested he
prepare a report to “quantify the amount of actual fraud...In closing
argument, the prosecutor told the jury that the report provided “very
compelling evidence that Medicaid had to pay almost $29,500,000 for
567 people [who]...did not qualify for or need personal care
services.
D.C. Circuit opinion, 611, 2019, concurring page,5, Rogers, J.
The failure of the district court to impose a meaningful sanction
thereby avoiding what clearly was irreparable prejudice to defendants is in
conflict with other opinions of this Court, the United States Court of Appeals
for the District of Columbia Circuit and other Circuits.
A prosecutor may not sandbag a defendant and “avoid disclosure of
evidence by the simple expedient of leaving relevant evidence to repose in
3

Defendants presented to the trial court a number of reasons why Medicaid benefits could have
legitimately been terminated.

the hands of another agency while utilizing his access to it in preparing his
/

case for trial.” United States v. Brazil, 102 F.3d 1120, 1150 (1999) citing
United States v. Trevino, 556 F.2d 1265,, 1272 (5th Cir. 1977).
Dismissal of the indictment without prejudice and allowing defendants
to investigate the 567 beneficiaries was a meaningful, appropriate and
available sanction. The failure to impose such a sanction completely
interfered with the rights of defendants to present a meaningful defense.
This Court should resolve disagreements between the D.C. Circuit
and other circuits, as well as with this Court, in order to finalize a significant
discovery issue.
CONCLUSION
The Petition for Writ of Certiorari should be granted.
Respectfully submitted,
/s/
Steven R. KiershK
5335 Wisconsin Avenue N.W.
Suite 440
Washington, D.C. 20015
(202) 347-0200

4

